No. 19-782
IN THE SUPREME COURT OF THE UNITED STATES
_________________
VAHAN KELERCHIAN, PETITIONER
v.
UNITED STATES AMERICA
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITIONvia email and first-class mail,
postage prepaid, this 24th day of April, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3158 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on April 24, 2020.

April 24, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0782
KELERCHIAN, VAHAN
USA

KERRY C. CONNOR
ATTORNEY AT LAW
9013 INDIANAPOLIS BLVD.
SUITE C
HIGHLAND, IN 46321
219-972-7111
KCCONNOR@SBCGLOBAL.NET
J. MICHAEL KATZ
THE LAW OFFICES OF J. MICHAEL KATZ
9013 INDIANAPOLIS BLVD.
HIGHLAND, IN 46321
219-838-9200
JMK4LAW@AOL.COM

